HHS/OIG, Audit -"Duplicate Medicare Payments to Cost-Based Health Maintenance Organizations Plans for Dean Health Plan, Inc. for Fiscal Years 2000, Through 2003,"(A-05-05-00042)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Duplicate Medicare Payments to Cost-Based Health Maintenance Organizations Plans for Dean Health
Plan, Inc. for Fiscal Years 2000, Through 2003," (A-05-05-00042)
August 16, 2005
Complete
Text of Report is available in PDF format (451 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of the audit was to determine whether services performed by the Dean Health Plan, Inc.s
capitated provider were also being reimbursed under the Medicare fee-for-service payment system. We
determined that Dean's capitated provider filed Medicare claims, for which they were paid on a fee-for-service
basis, while under a capitation arrangement with Dean.  The capitation arrangement, which provides
for a per member, per month payment to Dean's capitated provider, covered allowable service performed
by the provider to Dean's enrollees.  Medicare reimbursed Dean for the capitation payments made
to the provider via the Medicare cost reports; therefore, the fee-for-service claims paid directly
to the provider by Medicare are considered overpayments.  During our audit period, inappropriate
Medicare fee-for-service billings by Dean's capitated provider amounted to $91,710.
We recommended that Dean recover the $91,710 in duplicate Medicare fee-for-service claims made to
the capitated provider and that Dean develop an efficient and effective billing process system to preclude
and detect duplicate payments from the capitated provider.  Dean Health Plan, Inc. agreed with
our recommendations.